                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDLTM

11   Case Number: A-03050029                                                                 Page 1 of 1



          On 9 May 2003, we received an allegation of research misconduct. The complainant1 alleged
          that the subject's NSF proposal2 contained plagiarized text and methods from others' papers.

          We contacted the complainant, whose initial allegation contained insufficient information for us
          to evaluate. The complainant was reluctant and, ultimately, refused to provide any specific
          information about the source(s) of the alleged plagiarized text in the subject's NSF proposal.
          However, the complainant, seemingly inadvertently, provided four partial examples of the
          plagiarized text in the subject's NSF proposal and alluded to the publications3 from which these
          examples were copied.

           With the limited information provided by the complainant, we found insufficient substance to
           support the alleged plagiarism in the subject's NSF proposal. Accordingly this case is closed and
           no further action will be taken.




 NSF OIG Form 2 (1 1/02)
